U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




         NATIONAL OCEANIC AND
   ATMOSPHERIC ADMINISTRATION

                 NOAA Corps Has Improperly
               Handled Confirmation of Officer
                 Appointments and Promotions


     Final Inspection Report No. IPE-16138/February 2004




                             PUBLIC
                             RELEASE



       Office of Inspections and Program Evaluations

U.S. Department of Commerce                                                                                         Final Report IPE-16138 

Office of Inspector General                                                                                                  February 2004 



                                                      TABLE OF CONTENTS 


EXECUTIVE SUMMARY.............................................................................................................i


BACKGROUND ...........................................................................................................................1 


OBJECTIVES, SCOPE AND METHODOLOGY ........................................................................4


OBSERVATIONS AND CONCLUSIONS...................................................................................6


  I.	         The NOAA Corps Has Consistently Failed to Follow Requirements for Senate 

              Confirmation of Appointments and Promotions Since at Least 1986 ...............................6


        A. 	     More Than 31 Percent of Original Appointments Were Not Confirmed......................6


        B.	      Seventy-five Percent of Promotions Were Made Without First Securing

                 Senate Confirmation......................................................................................................7


        C. 	     In the Past, Confirmations Were Often Obtained Well Ahead of Selection for

                 Promotion ......................................................................................................................8


        D. 	     Several Reasons for the Improper Handling of Senate Confirmations                                                        

                 Were Identified..............................................................................................................9


        E. 	     Some Corrective Actions Are Already Underway ......................................................10


II.	          NOAA Corps Exceeded its Authority by Reappointing Former Corps Officers and 

              Accepting Interservice Transfers .....................................................................................12


RECOMMENDATIONS .............................................................................................................13


SUMMARY OF THE DEPARTMENT’S RESPONSE TO THE DRAFT REPORT 

AND OIG COMMENTARY .......................................................................................................14


APPENDIXES
  A. Agency Response to Draft Report………………………………………………………..16 

  B. NOAA Corps Original Appointment Process……..……………………………………..20 

  C. NOAA Corps Non-Competitive Promotions Process……………………………...…….21 

  D. NOAA Corps Competitive Promotion Process…………………………………………..22 

  E. Confirmation Process for NOAA Corps Officers.………………………………………..23

U.S. Department of Commerce                                                                 Final Report IPE-16138 

Office of Inspector General                                                                          February 2004 


                                         EXECUTIVE SUMMARY

The NOAA Corps is the smallest of the seven uniformed services of the United States and
consists of approximately 260 commissioned officers, who are led by a Rear Admiral.
Established in 1970, the Corps serves all five NOAA agencies (the National Weather Service,
National Marine Fisheries Service, Office of Oceanic and Atmospheric Research, National
Environmental Satellite, Data, and Information Service, and National Ocean Service), as well as
various other federal agencies.

As with other uniformed services, the NOAA Corps is required by statute to obtain Senate
confirmation1 for its appointments and promotions. However, it came to light in early 2003 that
the NOAA Corps had been appointing and promoting officers to permanent positions before and,
in some cases without ever receiving the requisite approvals. The NOAA General Counsel
issued a report on May 1, 2003, that examined the process of appointments and promotions of
Corps officers from the mid-1990s to 2003. In addition, the Department’s Office of General
Counsel (OGC) developed a list of NOAA Corps officer appointments and promotions that were
lacking the required Senate confirmation for the period of October 1, 1999 through February
2003. Subsequent to the work done by NOAA and OGC, the Senate Committee on Commerce,
Science, and Transportation and the Senate Subcommittee on Oceans, Fisheries, and Coast
Guard asked the Office of Inspector General to conduct an independent review of the NOAA
Corps’ confirmation process. The House Committee on Resources made a similar request. We
began our review in June 2003 and completed our fieldwork in September 2003.

In summary, our review revealed a culture of management indifference toward statutory and
procedural detail at the NOAA Corps which dated back at least to the mid-1980s. Our specific
findings are as follows:

The NOAA Corps Has Consistently Failed to Follow Requirements for Senate
Confirmation for Appointments and Promotions Since at Least 1986. As shown at the top
of the next page, 137 of 435 original appointments (31 percent) to the NOAA Corps between
1986 and the present were never confirmed by the Senate. In addition, of the 270 ensigns that
were eventually confirmed by the Senate, we found that 65 (24 percent) of the appointments were
not confirmed by the close of the next session of Congress. All of these officers remained on
their temporary appointments, despite the fact that the appointments should have terminated in
accordance with applicable law.




1
 Throughout the report, when a reference is made to “Senate confirmation”, it refers to the Presidential nomination
and Senate confirmation process.
                                                          i
U.S. Department of Commerce                                                             Final Report IPE-16138 

Office of Inspector General                                                                      February 2004 



                     Original Officer Appointments Not Properly Confirmed
                              by the U.S. Senate (1986 to Present)2
                                              Number                Percent (%)
        Never Confirmed              137 of 435 Appointments           31%
        Ensign Appointments           65 of 270 Appointments           24%
        Confirmed After
        Expiration of Timeframe

Concerning promotions, the Corps did not obtain proper Senate confirmation for 705 of 938
promotions (75 percent) made between 1986 and the present. Of the 705 promotions, 454 were
confirmed after the promotion to a permanent position had already taken place, and 251 were
never confirmed at all.

        Officer Promotions Not Properly Confirmed by the U.S. Senate (1986 to Present)
                                          Number                    Percent (%)
        Never Confirmed                     251                         27%
        Promoted before                     454                         48%
        Confirmation
        Total Improperly                    705                  75% of 938 Total
        Handled                                                     Promotions

In reviewing the confirmation lists, we found no discernable pattern, schedule, or routine
regarding the Corps’ timetable for sending forward lists of nominees for confirmation—
sometimes it was timely, many times it was not. Several factors contributed to the Corps’ lack of
compliance with statutory requirements. These include: (1) responsible Corps officials
apparently viewed the confirmation process as more or less pro forma and did not take it
seriously; (2) no internal controls were in place to prevent unconfirmed candidates from being
appointed or promoted into permanent positions and no operations manual existed to help ensure
compliance with the statute; and (3) neither NOAA management nor the Department provided
the necessary oversight to ensure that the Corps complied with statutory requirements.

We are aware that some corrective actions are already in process. For instance, OGC has been
working closely with the Corps to revise its internal regulations to be consistent with statutory
requirements. The two offices are also cooperating on the development of an operations manual,
key parts of which they hope to complete in March 2004. We understand that the Department’s
Office of Human Resources Management (OHRM) will also more actively monitor NOAA
Corps’ human resource function, and will review and approve future personnel policies and
procedures (see page 6).



2
    Includes interservice transfers and reappointments of former NOAA Corps officers.
                                                          ii
U.S. Department of Commerce                                                    Final Report IPE-16138
Office of Inspector General                                                             February 2004

NOAA Corps Exceeded its Authority for Reappointing Former Corps Officers and
Accepting Interservice Transfers. We found that the Corps exceeded its authority when it (1)
reinstated former Corps officers at grades higher than is permitted, and (2) accepted officer
transfers from other U.S. uniform services (“interservice transfers”) without the required
approval from the President and Secretarial action (see page 12).

On page 13, we offer recommendations to address our concerns.



The Under Secretary for Oceans and Atmosphere, the General Counsel, and the Chief Financial
Officer and Assistant Secretary for Administration concurred with all but one of the
recommendations made in our draft report. Specifically, they did not agree with our
recommendation to add 2 unconfirmed appointments and 15 unconfirmed promotions of officers
still in active duty status to the list of appointments and confirmations requiring confirmation that
had already been prepared by the Department. Based on an analysis of the legislation pending in
the Congress to ratify the prior actions of Corps officers who had problematic appointments and
promotions, OGC believes that the 17 officers do not need to be added to the list because they
either (1) already have a valid confirmation for a higher grade than the one not confirmed, or (2)
they are already on the list to be confirmed at a higher grade than the one we identified as not
being confirmed. We concur with this position and have removed the recommendation from the
final version of this report.

The Department’s response to our draft report is included as an appendix to this report and
outlines specific actions taken or planned to correct the problems identified in our report. We
discuss some of these specific actions and the Department’s response to our recommendations on
page 14.




                                                 iii
U.S. Department of Commerce                                                             Final Report IPE-16138 

Office of Inspector General                                                                      February 2004 


                                             BACKGROUND

The NOAA Corps is the smallest of the seven uniformed services of the United States and
consists of approximately 260 commissioned officers, who are led by a Rear Admiral.
Established in 1970, the Corps traces its roots to the U.S. Coast and Geodetic survey, the oldest
scientific agency in the federal government. Corps officers generally operate NOAA’s fleet of
vessels and aircraft, which are used to conduct research, chart and monitor developments in
geodesy, geophysics, metrology, oceanography, meteorology, climatology, marine biology, and
marine ecology. The Corps serves all five NOAA agencies (the National Weather Service,
National Marine Fisheries Service, Office of Oceanic and Atmospheric Research, National
Environmental Satellite, Data, and Information Service, and National Ocean Service), as well as
the Department of Defense, U.S. Coast Guard, National Aeronautics and Space Administration,
and the Department of State.

Original Appointments: Appointment of officers in the NOAA Corps is currently governed by
Public Law 107-372, 33 United States Code §3001 et seq.3 The statute provides that temporary
appointments in the grade of ensign may be made by the President alone.4 However, such
temporary appointments terminate at the close of the next regular session of Congress unless they
are approved by the President and confirmed by the Senate within that time frame
(33 U.S.C. §3029). Depending on when the officer is appointed, the end of the next regular
session of Congress could be anywhere from 1 to 2 years away.

The majority of officers begin their Corps careers as ensigns, selected by the Officer Personnel
Board (OPB), which meets at least twice a year to consider new candidates (see Appendix B). If
statutory requirements are followed, those selected are granted temporary appointments as
ensigns by the Secretary of Commerce and undergo basic officer training. In some instances, the
OPB may consider recommending an original appointment at a higher grade than ensign, up to
lieutenant, for a candidate because of education, work experience, etc. However, any original
appointment at a grade higher than ensign requires prior Senate confirmation before it can be
conferred, as must reinstatement of former Corps officers. Pursuant to 10 U.S.C. §716,
interservice transfers5 are handled differently from original appointments, as they do not require
Senate confirmation, but do require Presidential approval.

Promotions: In accordance with Public Law 107-372, promotions to all permanent grades shall
be made by the President, by and with the advice and consent of the Senate (33 U.S.C. §3026).
According to the NOAA Corps’ practice, promotions from ensign to lieutenant (junior grade) and

3
  Historically, statutory authority governing NOAA Corps appointments and promotions was set forth in several
different sections of the U.S. Code. Public Law 107-372, enacted by Congress on December 19, 2002, updated and
consolidated the patchwork of existing authorities governing the NOAA Corps. However, no material changes to the
basic authorities governing Corps appointments and promotions were made as part of this update and consolidation.
4
  This authority has been delegated to the Secretary of Commerce under Executive Order No. 11023.
5
  The NOAA Corps uses interservice transfers to recruit officers from other services to fill highly specialized
positions when the need arises.
                                                       1

U.S. Department of Commerce                                                             Final Report IPE-16138
Office of Inspector General                                                                      February 2004

lieutenant (junior grade) to lieutenant are made noncompetitively—candidates need only meet a
set of stipulated qualifications for coursework, physical, moral, dental, time in grade, etc., before
they are promoted (NOAA Corps Regulations 04205, E)6 (see Appendix C). However,
noncompetitive promotions from lieutenant (junior grade) to lieutenant are not permitted by
statute—which requires officers to be selected competitively for such promotions by the OPB.
Promotions to grades above lieutenant are also competitive—officers are assessed individually
against specific criteria, such as performance evaluations, training, and leadership ability, and are
then compared against each other (see Appendix D).

For the competitive promotions, based on the number of vacancies anticipated at each grade, the
director of the NOAA Corps estimates the number of promotions to be made. When this has
been determined, the director establishes a “promotion zone” from which officers may be
selected. The number of officers in the promotion zone is calculated as the number of selections
planned, multiplied by a factor that allows for an ample pool of candidates (1.5 for Lieutenant
Commander, 1.75 for Commander, and 2.0 for Captain). For example, if 5 officers are to be
selected for the grade of Captain, 10 officers would be in the promotion zone. Finally, eligibility
to get into the promotion zone is based on each officer’s placement on the Corps’ lineal list. This
list contains the names of all active duty officers, arranged by grade, with the Rear Admiral
taking precedence over all officers in the Corps. From there, the list is arranged by grade
(Captain, then Commander, etc.) and precedence of officers of the same grade is determined by
comparing dates of grade. The officers selected for a promotion zone are generally selected from
those at the top of the list within their grade. Once established, the list of officers in the
promotion zone is provided to the OPB for its consideration. All officers on the list are given
equal consideration for promotion and are evaluated by comparison against one another.

For competitive permanent promotions, if the promotion process that was in place during the
period of our review is followed, the most qualified candidates are recommended by the OPB,
approved by the director of the NOAA Corps, sent forward for Secretarial and Presidential
approval and Senate confirmation, and promoted when vacancies become available. The
Secretary of Commerce makes official each permanent promotion through a signed commission
that is issued after Presidential nomination and Senate confirmation. However, as described in
this report, the Corps did not always follow the process set forth in its statute. Many times, it
neglected to send names forward for Presidential approval, Senate confirmation, and Secretarial
commissioning, and simply promoted officers as vacancies became available.

Confirmation Process: The NOAA Corps’ Commissioned Personnel Center (CPC) is
responsible for compiling and submitting to the Senate the names of candidates whose
appointments or promotions require confirmation. The CPC is led by a director and deputy
director and is comprised of a staff of 13, including two payroll specialists in Topeka, Kansas,
who are co-located with the Coast Guard’s payroll center. Both the director and deputy director

6
 What have been denominated as the “NOAA Corps Regulations” are actually internal authorities, policies, and
procedures for the Corps, not published regulations that resulted from a formal rule-making process.
                                                       2

U.S. Department of Commerce                                                                   Final Report IPE-16138
Office of Inspector General                                                                            February 2004

are Corps officers, assigned on a rotating basis to serve one to four-year terms. These officers
usually have technical backgrounds with little or no special expertise in human resources
management, but are normally supported by civilian staff with background in human resources.
Currently, two of these staffers are responsible for processing appointments, promotions, and
confirmations, while three other Corps officers work in the center to manage officer assignments,
training, and recruitment.

The last list of officer nominees forwarded by the CPC was confirmed by the Senate on October
1, 1999. In November 2002, another list was prepared by the CPC, but was held up when the
Department’s review of the list identified several instances in which the same officers’ names
appeared more than once on the list because they were nominated either for an original
appointment and a promotion or multiple promotions to progressively higher grades. The
Department requested an explanation. The Corps responded in February 2003 that some officers
had previously received appointments and promotions without Presidential approval and Senate
confirmation, and the new list sought confirmation for those appointments and promotions as
well as for additional promotions of those officers. Thus, OGC became concerned about the
legality of the Corps’ appointment and promotion process and—with the Corps’ assistance—
OGC’s Employment and Labor Law Division undertook a review of officer personnel records to
ensure that the November 2002 list included all as yet unconfirmed appointments and promotions
since the last Senate confirmation on October 1, 1999. This review netted a list of 104
appointments and 147 promotions, for a total of 251 unconfirmed appointments and promotions.
The NOAA Corps certified this list as accurate and complete on March 14, 2003. The list was
later reduced to a total of 164 appointments and confirmations that still required Senate
confirmation.7

Departmental Action and Notification to Congress: In mid-March 2003, the Department
advised the Senate Committee on Commerce, Science, and Transportation that some officers
were currently serving in grades that had not been confirmed by the Senate. Also in mid-March,
the Under Secretary directed NOAA’s Office of General Counsel to review the process and
report its findings to the committee and subcommittee. Subsequently, on March 19, 2003, the
chairman of the full Senate committee and the chairman of the Senate Subcommittee on Oceans,
Fisheries, and Coast Guard, in a letter to the Under Secretary of NOAA, raised concerns about
the Corps’ confirmation process. On May 1, 2003, NOAA’s Office of General Counsel
completed its report, which offered recommendations to rectify identified problems, and
forwarded it to both the Senate commerce committee and Senate subcommittee on oceans. OGC
also provided a copy of the report to the Commerce Office of Inspector General, which had been
advised of this matter shortly after it came to the attention of OGC. On May 30, 2003, the
Department briefed House Resources Committee staff on the situation.

7
  OGC has opined that Senate confirmation is only needed for those de facto officers who are still members of the
NOAA Corps and that confirmation is needed only for the most recent promotion for those officers that had more
than one unconfirmed promotion. This opinion is based on the legislation (S. 886) which ratifies all actions by a de
facto officer and all federal agency actions relating to that officer during such time as the officer was not properly
appointed or promoted as a member of the NOAA Corps.
                                                           3

U.S. Department of Commerce                                                 Final Report IPE-16138
Office of Inspector General                                                          February 2004


Also in May, the Senate Committee on Commerce, Science, and Transportation and the Senate
Subcommittee on Oceans, Fisheries, and Coast Guard asked the Department of Commerce Office
of Inspector General to conduct its own review of NOAA Corps’ confirmation process. The
House Committee on Resources made a similar request. We began our review in June 2003.
On April 10, 2003, the Chairman of the Senate Committee on Commerce, Science, and
Transportation, introduced legislation (S.886) in the Senate to ratify the Corps’ problematic
appointments and promotions. The Senate unanimously passed the bill on July 10, 2003. The
legislation was forwarded to the House on July 14, 2003, and the House passed its version of the
legislation (H.R. 2584) on November 21, 2003. Once a final version of the legislation is enacted,
the Department will submit the list of 164 appointments and promotions to the Senate for
confirmation.

                      OBJECTIVES, SCOPE AND METHODOLOGY

Our purpose was to assess the process by which the NOAA Corps appoints and promotes officers
and evaluate whether the corrective actions taken by NOAA in the wake of its own review will
correct the internal weaknesses that allowed the Corps to circumvent statutory requirements. In
particular, we sought to (1) document in detail the appointment and promotion process as it has
functioned over the years; (2) identify where, when, and why the process deviated from statutory
requirements; (3) identify any oversight lapses that allowed the Corps to bypass Presidential
approval and Senate confirmation; and (4) ascertain whether officers serving in grades for which
they were not confirmed meet all the stated requirements for the appointment or promotion at
issue.

To meet our objectives, we reviewed pertinent documentation, such as officer personnel files,
and minutes of the Officer Personnel Board (OPB). We worked back through the records to
1986, in an effort to identify the “first” appointment or promotion not confirmed in accordance
with the governing statute. While we never found that “first” appointment or promotion, we
concluded that stopping our review at 1986 was sufficient to show that the problems with NOAA
Corps appointments and promotions were systemic for many years and under many management
teams.

In addition, we reviewed records of interviews and file reviews conducted by NOAA General
Counsel as part of its inquiry. We also interviewed the director of the NOAA Corps, the director
and deputy director of the CPC, staff from NOAA’s Office of General Counsel and the
Department’s OGC, and retired CPC staff whom we thought likely to have relevant information
about the issues being reviewed. We met with staff of the U.S. Coast Guard and U.S. Public
Health Service to learn how those organizations manage their Presidential nomination and
confirmation processes, and whether they have any best practices that could be used by the
NOAA Corps.



                                               4

U.S. Department of Commerce                                             Final Report IPE-16138
Office of Inspector General                                                      February 2004

We performed our fieldwork for this inspection from June 10 to September 10, 2003. At the
conclusion of our field work, on September 11, 2003, we briefed the Deputy General Counsel,
the NOAA Chief of Staff, the Executive Director to NOAA’s Deputy Under Secretary, and the
NOAA General Counsel on the results of our review. On September 12, 2003, we conducted
briefings for the Senate staff that requested our review, specifically staff from the Senate
Committee on Commerce, Science, and Transportation and the Senate Subcommittee on Oceans,
Fisheries, and Coast Guard. We briefed staff from the House Committee on Resources on
September 26, 2003.




                                             5

U.S. Department of Commerce                                                  Final Report IPE-16138 

Office of Inspector General                                                           February 2004 



                          OBSERVATIONS AND CONCLUSIONS


I. 	   The NOAA Corps Has Consistently Failed to Follow Requirements for Senate
       Confirmation of Appointments and Promotions Since at Least 1986

Our review of NOAA Corps’ appointments and promotions made since 1986 revealed that the
Corps consistently failed to obtain Senate confirmation in accordance with applicable statutory
requirements: officers on initial temporary appointments were not always confirmed by the
Senate before the temporary appointments ended, and promotions were routinely made before
candidates were confirmed or without any confirmation at all. We could not discern any pattern,
schedule, or routine regarding the Corps timetable for sending forward lists of candidates to the
Senate—sometimes it was done in a timely manner and thus met legislative requirements, but
many times it was not. (See Appendixes C and D). Interviews with Corps personnel suggest that
the Corps failed to comply with the confirmation requirements primarily because it did not fully
understand them and viewed them as simply a formality, and thus did not take them seriously.

Unlike the issues we have identified with the Corps’ confirmation process for appointments and
promotions, we found that the Corps generally adheres to applicable guidelines and qualification
requirements in selecting candidates for appointments and promotions. For instance, officers
must complete certain coursework, meet time in grade requirements, and fulfill other
requirements before they are eligible for promotion. Our review of 38 out of the 251 (15 percent)
appointments or promotions identified by the NOAA Corps to OGC in March 2003 as still
requiring Senate confirmation revealed that all the affected candidates met the selection criteria
and published qualifications for appointments and promotions. Further, the system for selecting
officers for appointments and promotions (e.g., composition of the Officer Personnel Board,
lineal list, etc.) generally complied with statutory requirements.

A. 	   More Than 31 Percent of Original Appointments Were Not Confirmed

We found that the NOAA Corps failed to obtain the required Senate confirmation for 137 of 435
original appointments (31 percent) between 1986 and the present. Thirty-three of the 137
unconfirmed appointments were identified by our review of records dating back to 1986 and
were in addition to the 104 unconfirmed appointments that were previously documented by OGC
in their review dating back to 1999.

In addition, of the 270 ensigns that were eventually confirmed by the Senate, we found that 65 of
the appointments (24 percent) were not confirmed by the close of the next session of Congress.
Further, all of these officers remained on their temporary appointments, despite the fact that the
appointments should have terminated in accordance with the statute. Also since 1986, the Corps
permanently appointed 36 officers to the grades of lieutenant (junior grade) and lieutenant
without first obtaining Senate confirmation (most of these appointments were confirmed by the
Senate after the fact). Unlike appointments at the grade of ensign, original appointments at the
                                                6

U.S. Department of Commerce                                                               Final Report IPE-16138
Office of Inspector General                                                                        February 2004

grades of lieutenant (junior grade) and lieutenant generally cannot be made temporarily and must
be confirmed by the Senate prior to the officer joining the NOAA Corps.8

B.	     Seventy-five Percent of Promotions Were Made Without First Securing Senate
        Confirmation

We found that the Corps has routinely promoted officers well ahead of receiving the required
Senate confirmation.9 (see Appendixes C and D). Approximately 75 percent (705 of 938
promotions) of all the Corps’ promotions between 1986 and the present were made without first
obtaining Senate confirmation—the most extreme example being confirmation obtained over 5
years (1,992 days) after promotion. The Senate eventually confirmed 454 of the 705 promotions.
However, we also found 104 officer promotions made during the 1986 to 1999 timeframe that
were never confirmed by the Senate—these are in addition to the 147 previously identified by
OGC (and certified to by the NOAA Corps) prior to the start of our review (see figure on next
page).




8
  The only exception to this requirement is that during time of war or national emergency, temporary appointments
may be made in all grades to which the NOAA Corps is authorized to make original appointments
(33 U.S.C. §3030). During the period of our review, 1986 to the present, this exception was never invoked.
9
  According to 33 U.S.C. §3029(b), the Corps has the ability to temporarily promote officers in the permanent grade
of ensign to the grade of lieutenant (junior grade) using the President’s authority alone. However, our review of
NOAA Corps records indicated that the Corps did not use this authority. Though some records suggested that the
Corps considered promotions to lieutenant (junior grade) as temporary, in practice, all promotions to lieutenant
(junior grade) were made as permanent promotions by the Corps.
                                                        7

U.S. Department of Commerce                                                                  Final Report IPE-16138 

Office of Inspector General                                                                           February 2004 


                    Promotions Which Did Not Receive Confirmation
                                                     (1986-2003)
         40
         35
         30
         25
         20
         15
         10
           5
           0
               1986 1987 1988 1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003


                               Unconfirmed promotions                          Unconfirmed promotions
                               identified by the OIG over and                  identified by DOC OGC
                               above those identified by                       and certified by the
                               DOC OGC and certified by the                    NOAA Corps
                               NOAA Corps




C. 	   In the Past, Confirmations Were Often Obtained Well Ahead of Selection For
       Promotion

Prior to the mid-1990s, the Corps also secured some Senate confirmations for officers well ahead
of those officers’ selection for promotion. (See Appendixes B and C). The most extreme
example of this practice was confirmation occurring nearly 2 and a half years (911 days) before
the officer was selected for promotion. While we understand that confirmation must always
come before promotion to conform with statutory authority, the Corps was sending forward
names for confirmation before the officers had even been nominated by the OPB for promotion.
According to the statute, the OPB makes “selections and recommendations to the Secretary and
President” for promotion of officers, which should preclude sending forward lists that included
officers who had not yet been selected and approved for promotion (33 U.S.C. §3022(b)(2)). As
a result, there are many cases of officers who were confirmed years before they were selected for
promotion and officers who were confirmed for promotions that they never received because they
either were not selected or left the NOAA Corps. The practice of sending forward officer names
for confirmation before they were selected for promotion by the Officer Personnel Board was
halted in the mid-1990s, with the list that was confirmed by the Senate on December 22, 1995.


                                                                8

U.S. Department of Commerce                                                 Final Report IPE-16138
Office of Inspector General                                                          February 2004

D.     Several Reasons for the Improper Handling of Senate Confirmations Were Identified

We identified three primary reasons for the Corps’ noncompliance with the confirmation
requirement:

(1)     Management Culture Supported the Circumvention of Statutory Requirements.
Based on our interviews and review of documentation, it appears that Corps managers knew that
Senate confirmation was required for appointments and promotions to permanent grades, but had
long believed such confirmation was more or less a formality that should not impede the
appointment of new recruits or the promotion of existing officers. Specifically, they did not
ensure that candidates for promotions and appointments above the grade of ensign were
confirmed by the Senate prior to any personnel action, or that new recruits serving on temporary
ensign appointments were nominated and confirmed before the end of the next regular session of
Congress. Over the years, these practices became institutionalized in organizational behavior and
culture, and a succession of Corps and CPC directors continued to employ an ad hoc approach to
appointments and promotions, despite the clear statutory requirements for handling the process
otherwise. Interestingly, the Corps never failed to handle the confirmation of its admirals
properly, which suggests it understood and took seriously the requirement as it related to those
positions. Unfortunately, that practice was not followed for the other grades.

(2)     No Documentation or Internal Controls. We found that the process for obtaining
Senate confirmation for appointments and promotions was also never documented in any way.
CPC—the organization responsible for compiling and submitting the confirmation lists—has no
operations manual detailing policies and procedures for appointments and promotions and
obtaining Senate confirmation, and center staff were unaware of the mandated timeframes or
points in the process during which confirmation for differing grades had to be obtained. Rather,
the CPC staff compiled confirmation lists of names at random intervals, kept inadequate records,
and made inaccurate assumptions, such as that the Senate confirmation could come after the
promotion had already occurred. As a result, the lists often omitted names that should have been
included and included names that should not have been presented for confirmation. Records of
these lists are either missing or incomplete and staff who were on board during these years have
either retired or moved on to other positions. No one currently staffing the center could even
explain to us how CPC conducts the process. Based on our interviews with several departmental
offices, including the Executive Secretariat, we pieced together a flowchart depicting what we
believe the NOAA Corps’ practice for obtaining confirmation has been since at least 1986 (see
Appendix E).

There were also no internal controls in place to help prevent unconfirmed appointments and
promotions from being processed in the payroll system. Memos signed by either the director of
NOAA Corps or director of CPC were sent to candidates for appointment and promotion
notifying them of the personnel action and its effective date. Copies of these memos were sent to
the NOAA Corps Payroll Unit for processing. The unit required no certification of Senate
confirmation or other documentation. Had there been some sort of control, such as a request for
                                               9

U.S. Department of Commerce                                                               Final Report IPE-16138
Office of Inspector General                                                                        February 2004

personnel action, signed by appropriate officials, which certifies that Senate confirmation, as well
as other requisite approvals from NOAA management, the Department, and the President, have
been obtained, this problem could have been avoided, or at least minimized.

(3)     Insufficient Management Oversight. CPC is headed by officers on rotational
assignment, who typically have no expertise in human resources management, and are therefore
at a disadvantage in managing the function. Additionally, neither NOAA nor the Department has
provided the necessary oversight to ensure compliance with the Corps’ statutory requirements.
Numerous Under Secretaries of NOAA and their staff as well as the Department’s Executive
Secretariat and Office of Human Resources Management share the responsibility for failing to
properly monitor the appointments and promotions process. While NOAA Corps management
has primary responsibility for ensuring compliance with its own statute, both NOAA and
Commerce officials have a responsibility for making sure that the law is followed.

E.      Some Corrective Actions Are Already Underway

Prompted by their own findings, both NOAA and the Department began to take corrective action
before we initiated our review. In March 2003, NOAA suspended all promotions and
appointments.11 It also urged potential retirees not to retire until legislation is passed by
Congress to make whole all officers not yet confirmed by the Senate. In addition, the NOAA
Corps assembled a team of three people in late September and assigned them the task of writing
an operations manual for the CPC, which includes checklists and copies of relevant documents
needed to implement the NOAA Corps Regulations, which are also being revised. This team is
working closely with OGC to complete this task, and anticipates that chapters on appointments
and promotions, the two issues of greatest interest, should be completed in March 2004.
Procedures for other CPC activities, such as recruiting and assignments, will be completed in
turn. Finally, NOAA has informed us that the Corps will be required to document all temporary
appointments and promotions by the issuance of a certificate signed and dated by the Secretary
and all permanent appointments and promotions by the issuance of a commission signed and
dated by the Secretary on behalf of the President.

OGC has taken on the task of reviewing the NOAA Corps Regulations to ensure that they follow
statutory requirements. We have also been advised that this process is nearly complete. The
regulations covering appointments and promotions have been completely reworked, and the new
versions appear to be clearer and consistent with statutory requirements. For example, the

11
  According to OGC, as a result of acute staffing needs in the NOAA Corps, the restriction on temporary
appointments of ensigns was lifted and new appointments were made in September 2003. Those temporary
appointments were properly made by the Secretary and did not require Senate confirmation. In addition, the
President approved the interservice transfer of a lieutenant (junior grade) in September 2003.




                                                       10

U.S. Department of Commerce                                                  Final Report IPE-16138
Office of Inspector General                                                           February 2004

existing regulations never mention the Presidential nomination and Senate confirmation
requirements, whereas the revised regulations reference them explicitly. In addition, OGC
informed us that it has drafted new regulations to address issues on which the old regulations
were silent, including a new section on reappointments.

Finally, the Department is revising Departmental Organization Order 20-8 to clarify and enhance
oversight of Corps personnel matters by the Department’s Office of Human Resources
Management. Although the current DOO gives OHRM responsibility for oversight of the NOAA
Corps’ personnel system, in practice, OHRM officials told us that they did not get involved with
the NOAA Corps’ uniform services resources system, and did not review and clear lists of officer
names before they were sent forward for Senate confirmation. The revised order will require
OHRM to approve all Corps uniform services resources policies, procedures, promotions, and
appointments.




                                                11

U.S. Department of Commerce                                                   Final Report IPE-16138
Office of Inspector General                                                            February 2004


II. 	   NOAA Corps Exceeded its Authority by Reappointing Former Corps Officers and
        Accepting Interservice Transfers

The NOAA Corps statute limits initial appointment authority to the grades of ensign, lieutenant
(junior grade), and lieutenant (33 U.S.C. §3021 (a)(1)), and provides no discrete authority for the
reappointment of former Corps officers. On nine occasions between 1986 and the present, the
Corps exceeded its authority when it reappointed former Corps officers to their former grades of
lieutenant commander and commander. Because the NOAA Corps statute does not include any
specific reappointment authority, if a former officer wishes to rejoin the Corps, the officer must
go through the Senate confirmation process before the appointment can be made. Moreover, any
reappointment must be treated under statute as an original appointment; therefore, an officer may
not be reappointed to a grade higher than lieutenant. Other services, such as the U.S. Public
Health Service and U.S. Coast Guard, have statutes that provide specifically for such
reappointments. In interviews, Corps officials told us they operated under the incorrect
assumption that the Corps had the same reappointment authority as other uniformed services.

In addition, the Corps must obtain Presidential approval for interservice transfers
(10 U.S.C. §716). However, we found that the NOAA Corps did not obtain necessary Secretarial
action and Presidential approval when accepting interservice transfers. Since 1986, seven
interservice transfers have taken place, according to the CPC. The Corps indicated that it was
not aware that interservice transfers required Presidential approval.

Corrective Actions Are Being Taken

As noted previously, OGC is currently working closely with the NOAA Corps to review its
statutory authorities and revise the NOAA Corps Regulations that govern the processes for
reappointments and interservice transfers.




                                                12

U.S. Department of Commerce                                                 Final Report IPE-16138 

Office of Inspector General                                                          February 2004 



                                   RECOMMENDATIONS


We support the actions in progress to correct the confirmation process for the NOAA Corps, and
we expect that they will address most of our specific recommendations, as outlined below.

We recommend that the Under Secretary for Oceans and Atmosphere:

(1) 	   Hold the Director, NOAA Corps accountable for ensuring that all appointments and
        promotions are handled in accordance with statutory requirements as well as internal
        regulations and procedures (see page 6).

(2) 	   As an internal control, require the NOAA Corps payroll office to use a control document,
        such as a request for personnel action, to:
           • 	 Document and process all temporary and permanent personnel actions; and
           • 	 Certify that all appropriate steps have been followed and approvals or clearances
               are obtained before processing personnel actions. This should include evidence of
               Presidential nomination, Senate confirmation, and Secretarial commissioning
               (see page 6).

(3) 	   Ensure that CPC management has the requisite expertise to oversee the human resources
        function (see page 6).

(4)	    Complete and implement (1) a detailed operations manual that clearly describes policies
        and procedures for appointments and promotions, to include guidelines for handling
        Presidential and Senate approval as well as Secretarial commissioning, and (2) revisions
        to NOAA Corps Regulations to reflect statutory requirements and authority (see page 6).

(5) 	   Provide training for CPC staff and other relevant NOAA Corps officials on how
        appointments and promotions will be handled in the future (see page 6).

We recommend that the Chief Financial Officer and Assistant Secretary for
Administration:

(6) 	   Ensure procedures are put in place to ensure that OHRM exercises oversight of the
        NOAA Corps by approving all Corps human resources policies, procedures, promotions,
        and appointments (see page 6).




                                               13

U.S. Department of Commerce                                                    Final Report IPE-16138 

Office of Inspector General                                                             February 2004 


                  SUMMARY OF THE DEPARTMENT’S RESPONSE TO

                    THE DRAFT REPORT AND OIG COMMENTARY 


(1) 	   NOAA agreed with our recommendation to hold the Director, NOAA Corps accountable
        for ensuring that all appointments and promotions are handled in accordance with
        statutory requirements as well as internal regulations and procedures. The Department’s
        response stated that appropriate administrative action was taken with regard to the
        responsibility and accountability of the chain of command involved with the improper
        handling of officer appointments and promotions.

(2) 	   NOAA also agreed with our recommendation to develop a control document to ensure
        that all appropriate steps are taken and approvals obtained in processing all temporary and
        permanent personnel actions. To this end, the Department’s response stated that the
        Corps reinstituted the Executive Order requirements to document all temporary
        appointments and promotions by the issuance of a certificate signed and dated by the
        Secretary and all permanent appointments and promotions by the issuance of a
        commission signed and dated by the Secretary on behalf of the President. It further noted
        that the operations manual being developed by the NOAA Corps will contain a checklist
        of all necessary steps, approvals, and clearances for appointments and promotions, which
        must be certified by the CPC Director before an appointment or promotion can be
        processed. Finally, the response stated that the Corps intends to use a copy of the
        certificate or commission as the control document for processing all appointments and
        promotions.

(3) 	   To ensure that CPC management has the requisite expertise to oversee the human
        resources function, NOAA stated that it is revising DOO 25-5 (which prescribes the
        organization, management structure, and assignment of functions within NOAA) to give
        the NOAA Office of Human Resources oversight of the NOAA Corps. Such oversight
        will include the review and preliminary approval of all human resource policies and
        procedures, and clearance of all appointments and promotions before submission to the
        Department’s OHRM. In addition, NOAA informed us that the position of Deputy
        Director of the CPC will be converted from a NOAA Corps officer billet, as has
        historically been the arrangement, to a civil service position, and filled by a civilian with
        experience in human resources management. The position description will explicitly set
        forth the Deputy Director’s responsibilities for administering the appointment and
        promotion process. Further, NOAA stated that the CPC Director’s position description
        will be modified to require the incumbent to have previously served a tour of duty in the
        CPC. Both the Corps and NOAA’s Office of Human Resources will evaluate the
        performance of the CPC Director. Finally, the Department’s response noted that OGC
        has assigned an attorney to act as a liaison to the NOAA Corps should any legal questions
        arise about human resource matters. Our only concern about NOAA’s proposed actions
        in response to this recommendation is that the CPC Director also explicitly be responsible
        for ensuring that appointments and promotions are handled properly.
                                                 14

U.S. Department of Commerce                                                    Final Report IPE-16138
Office of Inspector General                                                             February 2004


(4) 	   NOAA agreed with our recommendation to complete and implement an operations
        manual, as well as to make all necessary revisions to the NOAA Corps Regulations.
        With regard to the operations manual, NOAA informed us that it expects to have
        completed the first two chapters, dealing with appointments and promotions, by March
        2004. Concerning the revisions to the NOAA Corps Regulations, NOAA advised us that
        the exercise is nearly complete, with only a few issues remaining on which OGC is
        awaiting guidance from the Department of Justice’s Office of Legal Counsel. We would
        appreciate receiving copies of both the operations manual and the revised NOAA Corps
        Regulations once they are complete.

(5) 	   Training for CPC staff, other relevant NOAA Corps officials, and OHRM should be
        completed in April 2004, according to the agency’s response to our draft report. Such
        training should be updated and provided on a recurring basis to existing and new
        employees who handle NOAA Corps appointments and promotions. Additionally, as
        noted previously, the Department has assigned an OGC attorney to act as a liaison to the
        NOAA Corps and be available to answer questions.

(6) 	   OGC did not agree with our recommendation to add the 2 unconfirmed appointments and
        15 unconfirmed promotions of officers still in active duty status to the list of
        appointments and promotions still requiring confirmation, as previously prepared by the
        Department. OGC has concluded that confirmation at an officer’s highest grade, together
        with the legislation’s ratification of all actions by these de facto officers, will cure any
        previous lack of confirmation. All of the 17 additional unconfirmed appointments and
        promotions we identified had a subsequent confirmed appointment or are included on the
        list for confirmation at a higher grade. Accordingly, we have removed this
        recommendation from the final report.

(7) 	   The Chief Financial Officer and Assistant Secretary for Administration agreed with our
        recommendation to put procedures in place to ensure that OHRM exercises oversight of
        the NOAA Corps. However, the Department’s response did not explicitly state what
        those procedures are. While the changes to DOO 20-8 are a start, simply stating in a
        DOO that OHRM will have oversight does not explain to us or to OHRM staff how that
        oversight will actually be effectuated. We are pleased that OGC will provide training by
        April 2004 on the NOAA Corps’ statute and personnel system to OHRM staff to assist
        them in conducting their oversight responsibilities, but we would appreciate the
        Department providing more specific details in its action plan to address the procedures it
        has put in place, or intends to put in place, to ensure that OHRM exercises oversight of
        the NOAA Corps.




                                                 15

U.S. Department of Commerce                                     Final Report IPE-16138 

Office of Inspector General                                              February 2004 


                                      APPENDIX A

                              Agency Comments on Draft Report




                                            16

U.S. Department of Commerce         Final Report IPE-16138 

Office of Inspector General                  February 2004 





                              17

U.S. Department of Commerce         Final Report IPE-16138 

Office of Inspector General                  February 2004 





                              18

U.S. Department of Commerce         Final Report IPE-16138 

Office of Inspector General                  February 2004 





                              19

                                                                                    NOAA Corps

                                                                         Original Appointments

                                                                             (1986 to September 2003)

                                                                                                                                                              Not selected
                                                                                                                                                                                              Candidates notified
                                                                                                                                 No                                                          in writing / return to
                                                                                                                                                             Reconsider at                     recruitment pool
                                                                                     OPB convenes to
                                                       Recruitment                 recommend selections                                                       later time
                                                                                                                     DIR/NOAA Corps
              New Officers/Recruits                  (all year around)            for candidates/consider                approves
                                                                                     advanced standing
                                                                                                                                        Yes
                                                                                                                                                               Alternate
                                                                                                                                                                                            Temporary appointments
                                                                                                                                                                                                   offered
Appendix B




                                                                                                                                                                Selected

                            OPB: Officer Personnel Board




                                                                                                                                                                                                                       20
                            Lineal List: Active duty list of officers
                            and their position relative to every other                                                                                     Candidate removed         No
                            officer                                                                                                                           from further                     Candidates accept
                                                                                                                                                             consideration

                                                                                                     No                                                                    No                             Yes

                                                                                                                            Verification of
                       Commissioning of                Qualification letter for           Requirements met?             qualifications (medical,              Forms received                Security, health, dental
                          candidates                    appointment sent                                                  drug, citizen, age,        Yes                                          forms sent
                                                                                    Yes                                  body fat, education)




                      Travel orders issued/                                                                                                                        Go to
                                                                                            Assignment/
                      training for 3 months              Advanced standing                                                Lineal list placement             Confirmation Process
                                                                                            travel order
                    (except for most aviators)               applied                                                          determined
                                                                                               issued
                          and IDs issued


             Note: Confirmations for original appointments did not always take place from 1986 to present. Interservice transfers need Secretarial approval, but not Senate confirmation.

      Source: OIG depiction of the process NOAA Corps has followed since 1986
                                                                      NOAA Corps

                                                     Noncompetitive Promotions*

                                                                        to LTJG, LT 

                                                                  (1986 to September 2003)

                                                                                                                               Not promoted
                                                                                                                                at this time


                                                                                                                                         No

                                                                                                   OPB evaluates each           Acceptable                 CPC evaluates officers:
                                            OPB recommends
                 NonCompetitive                                         CPC tracks time in        officer’s performance        performance &                coursework, physical,
                                             time in grade for
Appendix C




                   Promotions                                          grade for each officer        and recommends             professional               moral, dental, time in
                                            BOTC (LTJG only)
                                                                                                        promotions                 qualif.                       grade, etc.
                                                                                                                                                    Yes


                      LTJG: Lieutenant (Junior Grade)




                                                                                                                                                                                      21
                      LT: Lieutenant
                      CPC: Commissioned Personnel Center                                                                                                  No
                      OPB: Officer Personnel Board                                                                                                              Requirements met ,
                                                                                                                           Promotion delayed                    vacancy available
                      DEERS: Dependent Enrollment
                      Eligibility System
                      BOTC: Basic Officer Training Course
                                                                                                                                                                           Yes



                       Go to               Promotions announced                                   Information in DEERS       Payroll is sent copy              Officer promoted and
                Confirmation Process                                    Lineal list revised
                                             in NOAA bulletin                                       and ID are updated       of promotion letter                informed by memo




                       The timing of the start of the confirmation process has varied from year to year (1986 to present). The red arrow indicates points at
                       which it has occurred in the past.
                 �     Promotions to LTJG became noncompetitive in December 1993 while promotions to LT became noncompetitive in March 1999.

         Source: OIG depiction of the process NOAA Corps has followed since 1986
                                                                       NOAA Corps

                                                               Competitive Promotions

                                                                      to LCDR, CDR, CAPT
                                                                    (1986 to September 2003)


                                                                                                                                                                                No
                                                                         DIR/NOAA Corps           CPC notifies candidates            OPB convenes selection
                                               CPC determines
                    Competitive                                        establishes promotion       of vacancies and their            board to evaluate candi-      DIR/NOAA Corps
Appendix D




                                             projected vacancies
                    Promotions                                        zones for each grade and    placement in zone, above              dates and makes                approves
                                               for each grade
                                                                         number promoted            zone, or below zone                 recommendations

                                                                                                                                                                     Yes




                                                                                                                                                                                            22
                                                                     Yes                         Yes                            Yes                              All candidates notified
                 Payroll is sent copy                                                                                                   Candidate accepts           by phone and in
                                              Officer promoted             Requirements met            Vacancy available
                 of promotion letter                                                                                                       promotion                    writing


                                                                                     No                          No                                No




                Information in DEERS                                    Promotions announced                         Go to
                                              Lineal list revised                                             Confirmation Process             LCDR: Lieutenant Commander
                  and ID are updated                                      in NOAA bulletin
                                                                                                                                               CDR: Commander
                                                                                                                                               CAPT: Captain
                                                                                                                                               CPC: Commissioned Personnel Center
                                                                                                                                               OPB: Officer Personnel Board
                     The timing of the start of the confirmation process has varied from year to year (1986 to
                     present). The red arrow indicates points at which it has occurred in the past.                                            DEERS: Dependent Enrollment
                                                                                                                                               Eligibility System
                                                                                                                                               Lineal List: Active duty list of officers
                                                                                                                                               and their position relative to every other
             Source: OIG depiction of the process NOAA Corps has followed since 1986                                                           officer
                                                               NOAA Corps

                                                   Confirmation Process Since 1986

                                                           CPC staff generate list                                                      DIR/NOAA Corps
                                                                                                          CPC Director reviews
                           Confirmation Process              of officer names                                                           reviews and clears
                                                                                                           and clears the list
                                                             to be confirmed                                                                  the list
                                                                                                              CPC Director is
                                                                                                               informed of
                                                                                                                  action

                                                   Secretary of Commerce
                                                     signs commission
Appendix E





                                                                                Commerce Executive
                               Commerce                                        Secretariat reviews and                                NOAA Exec/Sec reviews
                            Executive Secretary                                clears within Office of                                and clears within NOAA




                                                                                                                                                                             23

                                                                                    the Secretary

                                                                                     Office of General
                                                                                                                                      NOAA General Counsel
                                                                                         Counsel
                                                                                 Office of Policy &                                    Program Coordination
                                                                                 Strategic Planning                                           Office
                                                                                 Legislative & Inter-
                                                                                                                                           Deputy U/S
                           Secretary of Commerce                                Governmental Affairs
                              signs transmittal
                                                                                                                                           Chief of Staff

                                                                                                                                            U/S NOAA



                                                                                                                                         Yes

                                                                                                           U.S. Senate List
                           White House Office of           White House Executive                                                 U.S. Senate
                             Cabinet Affairs                   Clerk’s Office
                                                                                                             published in                                    CPC: Commissioned
                                                                                                         Congressional Record     confirms
                                                                                                                                                             Personnel Center
                                                                                                                                 No


       Source: OIG depiction of the process NOAA Corps has followed since 1986
